<html>
<title> - Countering Radicalization: International Best Practices and the Role of the OSCE</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


115th Congress }                            Printed for the use of the                       
                        
 1st Session   }     Commission on Security and Cooperation in Europe
                                             
======================================================================

                        Countering Radicalization: 
                       International Best Practices 
                         and the Role of the OSCE



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                           October 26, 2017

                           Briefing of the
          Commission on Security and Cooperation in Europe
------------------------------------------------------------------------
                         Washington: 2017




      Commission on Security and Cooperation in Europe
                  234 Ford House Office Building                                               
                   Washington, DC 20515
                      202-225-1901
                    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a9cadacacce9c4c8c0c587c1c6dcdacc87cec6df">[email&#160;protected]</a>
                    http://www.csce.gov
                     @HelsinkiComm




              Legislative Branch Commissioners
              
              
             
  

              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			 SHELDON WHITEHOUSE, Rhode Island
                        
          
                    
     
     
     
     
                 Executive Branch Commissioners

           
                        DEPARTMENT OF STATE
                       DEPARTMENT OF DEFENSE
                      DEPARTMENT OF COMMERCE
                               [II]


    ABOUT THE ORGANIZATION FOR SECURITY AND COOPRATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


     ABOUT THE COMMISSION ON SECURITY AND COOPRATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.

                                 [III]


Countering Radicalization: International Best Practices and the Role of the OSCE


                            October 26, 2017


                                  Page
                              PARTICIPANTS

    Alex Tiersky, Policy Advisor, Commission for Security and 
Cooperation in Europe							1

    Peter Neumann, Special Representative of the OSCE Chairperson-in-
Office on Countering Radicalization and Violent Extremism		3

    Seamus Hughes, Deputy Director, Program on Extremism, The George 
Washington University							6

    Matthew Levitt, Fromer-Wexler Fellow and Director, Stein Program on 
Counterterrorism and Intelligence, The Washington Institute		9


 
Countering Radicalization: International Best Practices and the Role of the OSCE
                              ----------                              

                            October 26, 2017



    The briefing was held at 2:04 p.m. in Room 385, Russell Senate 
Office Building, Washington, DC, Alex Tiersky, Policy Advisor, 
Commission for Security and Cooperation in Europe, presiding.
    Panelists present: Alex Tiersky, Policy Advisor, Commission for 
Security and Cooperation in Europe; Peter Neumann, Special 
Representative of the OSCE Chairperson-in-Office on Countering 
Radicalization and Violent Extremism; Seamus Hughes, Deputy Director, 
Program on Extremism, The George Washington University; and Matthew 
Levitt, Fromer-Wexler Fellow and Director, Stein Program on 
Counterterrorism and Intelligence, The Washington Institute.

    Mr. Tiersky. Ladies and gentlemen, on behalf of the U.S. Helsinki 
Commission's Chairman, Senator Roger Wicker, and the Co-Chairman, 
Congressman Chris Smith, I'd like to welcome everyone to today's 
briefing on ``Countering Radicalization: International Best Practices 
and the Role of the OSCE.'' I would like to welcome the members of the 
distinguished audience. I'd like to specifically recognize Ambassador 
Hrle who is here with us, and Ambassador Strohal. Thank you for joining 
us from Vienna.
    Ladies and gentlemen, as terrorist threats have multiplied in their 
scope and scale, the 57 participating States Organization for Security 
and Cooperation in Europe, or the OSCE, have sought to play an 
increasingly central role in facilitating international efforts to 
prevent and combat terrorism, including addressing conditions that 
create fertile ground for terrorist groups to recruit. The extent of 
the problem, of course, is in many ways before us every day. I happened 
to notice a headline about a week ago from Reuters. The headline read: 
``Germany says worried about new generation of Islamic State recruits. 
Germany's domestic intelligence agency said on Thursday that minors 
returning from war zones in Syria and Iraq could grow into a new 
generation of recruits in Germany for the Islamic State group.'' This 
demonstrates how relevant an issue this is for us to be discussing 
today.
    Ladies and gentlemen, let me first introduce our guest of honor, as 
it were, who has flown here from London to be with us. Dr. Peter 
Neumann was appointed as the OSCE special representative on countering 
radicalization and violent extremism by the OSCE's Austrian 
chairmanship for this year, represented by Ambassador Strohal. As a 
part of Dr. Neumann's mandate, he published an expert report on the 
27th of September on the OSCE's activities to prevent violent extremism 
and radicalization that lead to terrorism, describing both best 
practices and possible areas for additional efforts.
    I can't tell you how thrilled I am that Dr. Neumann has readily 
agreed to fly transatlantic and present his report in the United States 
here with the Helsinki Commission. His extremely impressive biography 
is your packets. Let me briefly tell you that Peter directs the 
International Center for the Study of Radicalization, which he founded 
in 2008, at the Department of War Studies, Kings College, London. He's 
a regular commentator across the media and academic landscape, the very 
definition of a thought leader on this subject matter.
    I can also say, now that I've introduced the guest of honor, that 
equally honorable are two Washington-based commentators and scholar-
practitioners who we have asked to join us to reflect and react to 
Peter's report. A first reaction will come from Seamus Hughes, to my 
left. Seamus is the deputy director of the Program on Extremism at 
George Washington University. He formerly served at the U.S. National 
Counterterrorism Center, and as senior counterterrorism advisor for the 
U.S. Senate Homeland Security and Governmental Affairs Committee. It's 
always a great pleasure to welcome back a Hill staffer.
    I will add that Seamus is not just a former Hill staffer. He has 
testified in front of a number of committees and on a number of 
occasions as an expert on this subject matter. I have challenged Seamus 
to provide a kind of a counterpoint to Peter's report. Peter will, 
rightly, focus on some of the best practices that he's discovered in 
his travels. I've asked Seamus to talk to us in some sense on worst 
practices and what those practices might have for the fight against 
radicalization.
    Our third speaker today is Matthew Levitt who serves as Fromer-
Wexler fellow and director of The Washington Institute's Stein Program 
on Counterterrorism and Intelligence. Matt formerly served as deputy 
assistant secretary for intelligence and analysis at the U.S. 
Department of the Treasury, as a State Department counterterrorism 
advisor, and as a counterterrorism intelligence analyst at the FBI. 
He's extremely well placed to give us an overview of where U.S. policy 
is on this issue and how it evolved from the last administration to 
this one.
    Let me just point out an excellent report that Matt edited. It was 
a study group at The Washington Institute for Near East Policy. Matt 
led this bipartisan report on defeating ideologically inspired violent 
extremism; these were policy notes for the Trump administration. I'll 
be very interested to hear to what extent he thinks his policy notes 
have been followed thus far.
    Let me set one ground rule for the speakers; this is a subject that 
can rapidly become technical, particularly among the experts that are 
gathered here. If there's terminology that I think may not be clear for 
the audience, I might interrupt you. I will only flag, for the 
audience, one of the favorite acronyms that I have discovered since 
joining the world of work in the OSCE, which is VERLT, which may be 
thrown around on this panel. It is ``violent extremism and 
radicalization that lead to terrorism.'' But of course, this 
definitional issue and the issue of terminology is one that Peter 
covers quite well in his report and I think will come up today as well.
    So now I look forward very much to hearing from Peter a 
presentation of his expert report on countering radicalization and the 
OSCE. Peter, please.
    Dr. Neumann. All right. Well, thank you very much, Alex, and thank 
you to everyone who's taken time to come here to listen to me and to 
listen to all of us debate.
    I'm not going to read out the executive summary of the report. This 
is something that you can download and read at your leisure. What I 
want to talk about briefly is how this report has come about, what it 
represents, and perhaps what it recommends. And perhaps this will give 
enough meat for discussion.
    This report came about because late last year, the Austrian 
chairmanship--by the way, it is Austrian National Day today, so happy 
Austria--the Austrian chairmanship approached me and asked me if I 
wanted to be a special representative. And I found this remarkable 
because for any Austrian politician, it is a very brave thing to 
appoint a German to any position, and a risky endeavor. And they did it 
nevertheless. So thank you, again, for giving me the pleasure of 
working with you for nearly a year.
    And the idea of the Austrian chairmanship was to make this issue--
countering terrorism, countering radicalization in particular--to make 
it a focal point of their presidency. And that meant that I attended, 
of course, a lot of meetings and conferences and workshops. But they 
also asked me to produce a report which would contain recommendations 
on what the OSCE can do better, and perhaps what the specific niche of 
the OSCE is to contribute to countering violent extremism.
    In the course of doing my research I visited 15 countries, from 
Kyrgyzstan to the United States. I engaged with all the executive 
structures of the OSCE. And, as I said, I attended lots of events and 
workshops, including two in Sarajevo in Bosnia. Before I start telling 
you what I came up with, I think it is important to emphasize how good 
the timing was. And it is, of course, also important to point out that 
the OSCE is opposed to all forms of terrorism, whether it is coming 
from the far right, from the far left, or, indeed, ethnic separatists. 
But one concern that is shared by all member states of the OSCE, the 57 
of them, is, of course, jihadist terrorism, particularly right now in 
the form of ISIS.
    What we've been witnessing, of course--and this is nothing I need 
to brief you about--is the end, the destruction of the territorial 
projects of the so-called Islamic State, the so-called caliphate that 
was declared in 2014. And you can never say often enough that this end 
of the physical caliphate is not an end of terrorism. It does not 
signal an end even of ISIS. It is really the end of phase one. And what 
exactly phase two will consist of is something that experts like 
ourselves are debating vigorously right now. No one can say exactly 
what it is going to entail. What's certain is, is that by definition 
because of the destruction of the physical caliphate, this movement 
that sits behind it--the jihadist movement--will be less concentrated. 
To some extent, it will spread out.
    And that means that at least in the short to medium term, and 
perhaps paradoxically, this means actually that the threat from 
terrorism may increase, in particular for countries that were not part 
of the physical manifestation of that so-called caliphate, including 
all 57 member states for the OSCE. So, in a sense, the physical 
destruction of ISIS could actually, in the short to medium term, entail 
more threats from terrorism rather than less. And so it is a good point 
at which to think about what the OSCE can do and how member states can 
prepare themselves for what is going to preoccupy us, probably for many 
years to come.
    What I want to do now is to first of all tell you very briefly 
about the conclusions that I came up with, and then perhaps also 
express some of the reservations and concerns that I still have. First, 
the conclusions. It is important to recognize, of course, that the OSCE 
is a complex organization consisting of a lot of different members. And 
despite its name, Organization for Security and Cooperation in Europe, 
it actually includes Russia, all the former Soviet states, and of 
course also Canada and the United States. The numbers are very large. 
Politically it is a very diverse organization. And it has field 
operations, I think, in 13 different countries.
    So on the one hand, you could say this is a mess in the making, you 
will never be able to get this kind of organization to do anything, it 
is too complicated, in many ways too political. And it's certainly true 
that no one in their right mind, not even anyone at the OSCE, would 
think of the OSCE as the sole or central actor in counterterrorism or 
in countering violent extremism.
    But a lot of the things that I've just talked about, a lot of the 
things that seem like weaknesses can in fact also be strengths. And 
this is what my central conclusions were. The diversity of membership 
means, of course, that the OSCE includes a lot of countries that have a 
lot of experience with fighting terrorism and some countries that do 
not have very much experience with fighting terrorism. It includes 
countries that have very high capacity when it comes to countering 
violent extremism and a lot of countries that do not.
    In a sense, the OSCE could be a hub for exchanging best practices, 
experiences that countries have had, and helping other countries to 
build up their capacities perhaps more quickly. And one of the central 
recommendations in the report is to boost and to bolster and to make 
more sophisticated the Action Against Terrorism Unit [ATU], which is 
one of the units at the OSCE, which is specifically charged with 
facilitating the exchange of best practices. I'm in fact happy to 
report that shortly after my report was published, the Austrian 
chairmanship confirmed that it was ready to contribute to making the 
ATU more important and to precisely pursue this idea of building that 
unit into a more sophisticated and perhaps the most interesting and 
innovative hub for exchanging best practices across the 57 member 
states. So there's momentum behind that idea.
    The second recommendation, or central recommendation that I made, 
was to strengthen the field operations And this is particularly 
important because a lot of the countries that I've traveled to, 
especially in the Balkans--for example, in Bosnia when I went there, a 
lot of people told me that they were quite fed up with the fact that a 
lot of international organizations were engaged in this field, they 
were coming to Bosnia for a couple of days trying to run workshops, 
were leaving after workshops and were never to be seen again. So the 
engagement was often duplicated, and it was also in many respects quite 
superficial.
    Now, the advantage of the OSCE is, of course, that it has these 
field operations. It is on the ground. If you go to Bosnia, for 
example, you will see this is an organization with 250 people on the 
ground who know local conditions, who know what's going on within that 
society, who know the key stakeholders who are really important within 
that society. I do believe that, especially in the Balkans and Central 
Asia, two areas and two regions that are strategically important when 
it comes to countering violent extremism, I do believe that the OSCE 
could play a lead role in facilitating international engagement on 
countering violent extremism. It has a unique position, value added, 
that no other organization can deliver, because they simply do not have 
the presence on the ground that the OSCE has.
    So these are my two central recommendations. And when it comes to 
these best practices, in fact, I've made an effort in my report to 
highlight existing best practices, showing that it's not something that 
needs to be invented from scratch. There's no need to reinvent the 
wheel. If countries like, let's say, Kyrgyzstan or Macedonia do want to 
have a disengagement program or a program that engages women and 
mothers encountering violent extremism, they do not have to invent 
that. There's plenty of programs that exist across the OSCE. And to be 
able to tap into those experiences could be something that could be 
very useful. And in fact, the report lists a lot of these best 
practices--by no means an exhaustive list but one that could perhaps 
inspire some of the work that I hope will be done.
    Now, to conclude, I want to highlight some of my continued 
concerns. I think it is important not to underestimate the difficulties 
that are involved. This one year of engagement with the OSCE for me has 
been a one-year journey into international diplomacy in which I've 
learned a lot, including a lot of the difficulties and obstacles that 
exist, especially in this area. I've found, especially at many 
meetings, that it is very easy for countries to talk about the problems 
of other countries. It is very easy to point fingers. It is much more 
difficult to talk about your own problems.
    One narrative that I've discovered is that when it comes to 
speaking about the causes of terrorism in your own country, countries 
always like to talk about ideology and like to talk about external 
influences that have somehow come to materialize, typically by foreign 
countries, in their own country.
    When it comes to other countries, they're very quick to identify 
structural causes, injustices that exist in those societies, 
inequalities. There's a funny discourse where everyone points the 
finger at others and is very good at identifying problems in other 
countries, but very bad at speaking about their own problems.
    There is, of course, also a fundamental difference of approach. 
There are some countries that are very open to, quote, unquote, 
``softer approaches'' towards countering terrorism and radicalization, 
that are very open to involving civil society, very open to also talk 
about things that are perhaps wrong in their own countries. There are 
other countries that are very much focused on intelligence and security 
agencies and who probably believe that much of what my report talks 
about is basically a waste of time. That is a real divide within the 
OSCE that cannot easily be bridged.
    And there's no doubt that--of course everyone agrees that terrorism 
should be countered. Everyone agrees that ISIS should be defeated. But 
once you get beyond these statements, once you get to the nitty gritty, 
you realize how difficult it is. One example--perhaps the most obvious 
example--is that everyone is against ISIS, but we do not have a joint 
coalition fighting ISIS in Syria, because fighting ISIS in Syria is 
ultimately tied up with the conflict in Syria. And the ideas about what 
caused that conflict and how it can be fought are very, very different, 
depending on whether you ask people in Paris or Moscow or in 
Washington, D.C.
    So while it is true everyone agrees about fighting ISIS, everyone 
agrees that it would be a good idea to be against terrorism, once you 
get into the nitty gritty there are a lot of problems. And I think it 
is almost astonishing that an organization like the OSCE can do 
anything at all if you consider all the different assumptions and 
different ideas that are floating around.
    The important thing to keep in mind is, of course, that terrorism 
will not be defeated ever by one thing. There's lots of instruments 
that will be used. The OSCE is one instrument of many instruments that 
can be used to make a contribution to that. No one ever claimed that 
the OSCE would become the sole or central or major actor in this field, 
but I do think that there are useful things that the OSCE can do, and I 
hope my report makes a contribution to explaining what they are.
    Thank you.
    Mr. Tiersky. Peter, thank you. That was an excellent overview of 
some of your findings. I want to highlight a couple of things that I 
hope we'll come back to. I think it's very important to talk about that 
diversity of views, which includes a diversity of terminology and 
definitional diversity. But also, I think, crucially what you 
highlighted for us is a differing of approach. And I think the softer 
approaches versus the harder approaches--I hope we'll get into that in 
the discussion a bit more.
    I also appreciate your highlighting towards the end that the OSCE 
is only one instrument. Perhaps we'll be able to get into the OSCE as 
opposed to other instruments and the other instruments and the benefits 
of using one versus the other.
    Finally, you mentioned in your report and again today the 
importance of field missions and the potential that they have to really 
be key players and unique players because of their presence on the 
ground. I'll take the opportunity to trumpet the fact that the Helsinki 
Commission will be having another event specifically on the field 
missions, concentrating on the western Balkans, on the 1st of November 
at 10:00 a.m. in the Senate Visitors Center. So the information on that 
event is on our website.
    Let me turn to Seamus, please, for a merciless critique of the 
report. [Laughter.]
    Mr. Hughes. Thank you very much. It's hard to do that as a fellow 
with Peter's center, but I will try.
    First of all, let me first commend Peter and OSCE for a very 
comprehensive report. I mean, we're talking about visiting 15 different 
states, a dozen conferences, six field trips. This is the kind of hard 
work you need to do in order to determine what we talk about when we 
talk about counter-radicalization, countering violent extremism.
    So let me first commend that. It's one of the best reports I've 
seen on CVE in recent memory, Matt's report excluded.
    I was asked to talk a little bit about countering violent 
extremism, or CVE, and some potential areas to avoid, or be aware of, 
as one develops the program. A little bit of background on myself: 
prior to being at the program on extremism at George Washington, for 
about three and a half years, my main job was to do community 
engagement in the U.S. on these issues--going to a mosque and community 
center and talking about radicalization, terrorism, recruitment, and 
ways the government and community partners can partner together to try 
to prevent this. After the Boston Marathon bombing, the imam of the 
mosque calls me and said, you know, Seamus, two of my guys just did a 
horrible thing. Can you come and talk to my congregation about 
preventing the next two guys from doing this?
    And these are very difficult and hard discussions to have with 
community partners. So when I'm thinking about developing CVE programs, 
I'm always kind of framing it in those conversations I had in the field 
in the U.S., in every mosque and community center you can think of, in 
the last three years.
    With that said, I thought we'd talk a little bit about the nature 
of the threat very quickly and then move on to nine points to be aware 
of, things to look at as you're developing the CVE program. I think 
Peter was right, that we're actually in a new phase of terrorism with 
ISIS losing its physical space at a pretty rapid clip. But just this 
week, we had a new report out from the Soufan Group of 2,000 returning 
European foreign fighters in the last few years. In the U.K.'s context, 
you're talking about some 400 people have returned to the U.K., but of 
that, only about 50, 52 people have been charged with criminal 
offenses. So those 350 are kind of out in the wind--concerns for law 
enforcement but also an opportunity for some counter-radicalization and 
countering-violent-extremism programs, because it's one thing to know a 
guy went to Syria; it's another thing to prove it beyond a reasonable 
doubt in a court of law. And I think there's a lot of things that these 
countries are trying to grapple with.
    And again, we're talking a lot about foreign fighters, but if you 
look at the attacks happening in Europe, particularly in Europe, only 
20 percent of the 60-plus attacks in the last three years, since the 
announcement of the caliphate, have been committed by returning foreign 
fighters. It's primarily homegrown violent-extremism attacks. About 70 
percent are committed by citizens of their own country.
     I put that in context as we look at this, and I would encourage 
everyone to read the report pretty thoroughly. There's 22 different 
best practices, and I particularly like the fact that they had case 
studies to look at from around the world.
    A few things to be aware of as we're kind of developing a CVE 
program. I think--and the report actually does a very good job at 
acknowledging the shortfalls on these things--but first and foremost is 
this idea of essentially securitizing the relationship. I said I used 
to go to mosques and community centers and talk about these issues, and 
the first question would be, ``Why is an intelligence officer talking 
to me? I'm not a threat.'' And you have to kind of push through that 
conversation and make sure that your first line of communication with 
community partners is not, ``Hey, I'm worried about three girls from 
Denver jumping on a plane to Syria and Iraq.'' And trying to phrase 
that in the right way, I think, is important. The report also says 
rightly that in some ways heavy-handed counterterrorism efforts can 
feed into a larger narrative or grievance that's out there. We have to 
be aware of that.
    The other thing--and I think rightly said--was the lack of solid 
definitions. It's pretty easy to define terrorism, give or take. It's a 
little bit harder for extremism, and it's quite hard for counter-
radicalization. And trying to get 56-plus countries to agree on these 
definitions is something, I think, that is worrisome but also something 
you have to do if you want to create programs that you can then 
transfer that one best practice to the others.
    A few other points--we talk a lot about returning foreign fighters, 
but there's been a series of different waves of returning foreign 
fighters. The guys that left in 2013 and then came back home are much 
different than the men and women--and particularly minors--that are 
going to be returning in the coming months. And how we address those 
threats, I think, is important for this.
    Additionally, there's been, frankly, a lack of funding for 
countering-violent-extremism programs in general. With some notable 
exceptions, it's usually an afterthought. Counterterrorism is the big 
gorilla in the room. So if we want to get to a point where we're 
talking about prevention, we have to put our money where our mouth is 
on these things.
    The report also talks a lot about prison radicalization, rightly 
so. And I guess in the U.S. context, our concern is, we've arrested 
about 600 people for terrorism charges. We've had about 50 to 100 
people being released. I've interviewed a number of them. Most of them 
have moved on with their lives and are productive members of society, 
but that's of their own volition. We haven't provided a systematic 
approach for individuals getting out. This is particularly important in 
Europe, where we're talking about shorter prison sentences than the 
U.S., where we're looking at 20 or 30 years. In Europe, you know, two 
to seven is a good day. What does that actually mean for not only 
what's happening in prison radicalization and whether to separate so-
called radical individuals from the general population, or whether to 
kind of spread them out so they're not planning? These are all things 
we need to grapple with.
    A few final remarks on this is this idea that community policing is 
important. My concern is sometimes community policing gets blurred 
quite quickly. And LAPD has a model of community policing in the states 
that works with community engagement and things like that, but it's 
also run by the counterterrorism division of the Los Angeles Police 
Department. What does that mean in general when you're doing the 
engagement? They might be the subject matter experts, but there's also 
kind of a dynamic playing in there.
    There was a discussion, and I think it's very important, this 
concept of--and the U.S. Government, I think, is going to be moving on 
into this--away from broad-based engagement of what I used to do, which 
was 300 people in a mosque, talking about terrorism, towards more 
targeted interventions. I've got a kid Johnny, Johnny seems to be on 
the wrong path, and what's the kind of safety net we can develop around 
that? And I think especially in the U.S. context, you're going to see 
that shift away from countering violent extremism in the broad-based 
sense to what they would term as terrorism prevention.
    Two final points to look at is in terms of internet 
radicalization--I thought the report did a very good job of this, but I 
want to highlight it. Governments are relatively lazy when it comes to 
terrorism content on the internet. Content removal is actually pretty 
easy. You can force Twitter, Facebook, or YouTube to enforce their 
terms of service with a pretty good press release or a gentleman in 
Congress standing up in the well of the Senate talking about this. It's 
a little bit harder to do alternative or counter-messaging. You have to 
actually roll up your sleeves and figure out what messages work, how to 
target this. And so I would hope that we don't just revert back to 
content removal as being the low-hanging fruit and focus on other 
things.
    And the final point I think is important for all CVE programs is 
this concept of reciprocal radicalization. We've been seeing this play 
out not only in the U.S. but also the U.K., that far right feeding off 
of the attacks of ISIS. So, a man drives a van outside of a mosque and 
kills a number of people. And this reciprocal radicalization feeds off 
of each other. If we want to address the issues of ISIS, we're also 
going to need to address the larger issues of extremism in general, 
because if we don't, we're going to be in this cycle of violence.
    With that, I'll stop there and give it to Matt.
    Dr. Neumann. Merciless. [Laughter.]
    Mr. Tiersky. Seamus, thank you. You put a lot on the table for us 
to collectively chew over. I would flag that we've mercifully not used 
the terminology VERLT specifically, but we have definitely flipped 
between talking about violent extremism, radicalization. We've used the 
term CVE in the U.S. context. You've talked about counterterrorism. 
You've talked about a terrorist prevention approach. We're already 
getting into a definitional--not a morass, but at least I'd like us to 
be clear in terms of what exactly we're addressing.
    You also mentioned the potential challenge that heavy-handed 
counterterrorism efforts--I think was your phrase--could feed into 
radicalization, which I think is an extremely important point and one 
that I hope we'll come back to, so that we have a sense of exactly what 
it is we're talking about when we're talking about heavy-handed 
counterterrorism effort. What does that look like, and what 
specifically are we trying to avoid in that respect?
    With that, let me turn over to Matt Levitt for his views on how 
this all looks in the U.S. context.
    Thank you.
    Mr. Levitt. Well, thank you very much. It's very risky to go last 
when you're sitting on a panel with people like Peter and Seamus, but 
I'm very glad to be here. And I want to thank the OSCE and the Helsinki 
Commission for the work you've done and for making this possible.
    I'm going to focus my comments on preventing or countering violent 
extremism or terrorism prevention here in the United States, not only 
because that was the focus of this report, this bipartisan study that I 
led in advance of the election. It ended up being a report for the 
Trump administration, but it was intended for whoever would win the 
next election, which is something that Washington does every four 
years. We're a nonpartisan institute, but every four years we bring 
together smart people from both sides of the aisle to think through 
some complicated issues. And this year, one of the things we did was 
thinking about preventing and countering violent extremism.
    And it's an important time to think about this because the Trump 
administration has not yet really articulated what its position on this 
is going to be so much as it's articulated through action what its 
position probably will not be. And that is going to force us to think 
about what it is that we're actually trying to achieve. Are we trying 
to simply prevent the next terrorist attack? Are we trying to move the 
needle as early in the process as possible to prevent the next person 
from being radicalized? Are we going to focus on all forms of 
radicalization, including far left and far right, or are we most 
interested in what some in the administration, including the president, 
tend to refer to as ``Islamic extremism'' ? We in the report take issue 
with that and prefer the term ``Islamist extremism.'' It might seem 
like a very, very subtle distinction, but ``Islamic'' as a phrase--you 
know, a little bit of grammar would refer to the religion, its 
adherents and its basic practices. And our argument is that this is not 
anyone's particular religion. An Islamist is taking that into a 
political ideology.
    And we argue very much that we should be focusing on all 
ideologies, not only because violence from whatever -ism is still 
violence and we should be interested in public safety but also because 
from our bipartisan perspective--and it's not clear the new 
administration agrees with this at all--from our perspective, the 
earlier you can move this into the process and the farther out of 
Washington, out of the Beltway bubble, you can move this into 
communities, whether that's Montgomery County, Maryland, where I live, 
or L.A., or anywhere in between, the more effective your efforts will 
be.
    And they will be more effective because you can treat them in what 
you might describe as a public-health style of a model. In public 
health, we try and prevent a disease from being able to penetrate a 
community at all. Then if we find parts of the community or individuals 
that for some particular reason are particularly susceptible, we 
address them. And then if we find people have actually gotten sick, we 
really address those particular individuals. We deal with it at a 
community level, and we deal with it at an individual level. And if you 
do that, if you're working in the first instance at a very macro 
community level, then you are going to be able with the very same tools 
to take action that will effectively counter extremism from whatever 
type of ideological background it's coming from.
    We think this is very important, and to me it's not at all clear 
that the administration is going in that direction. There are several 
indications that the administration is moving away entirely from the 
term ``countering violent extremism.'' Now, some would say that that's 
long overdue. And frankly, most people involved in this field in 
communities will be quite happy with that, because for them the term 
``CVE''--it's too securitized already. There's a perception among some 
that it's just a cover for spying on people in the local community. So 
I challenge anyone here in the room or on Facebook Live to show me an 
example where local communities--yeah, that's done--where a local 
community is using the term ``CVE.''
    Some would say moving away from that term is no big deal. And in 
fact, in our report, we use the term ``PCVE,'' ``preventing and 
countering violent extremism.'' The term that the administration seems 
to be moving toward--and you can see this from recent Department of 
Homeland Security testimony and from the renaming of some of the 
government events that are going on within the Beltway--is ``terrorism 
prevention.'' And the only issue I have with that is the basic 
question, would all of the absolutely necessary things that we have to 
do to truly build cohesive societies, to build resilient communities, 
to move the needle earlier in the process so this is not only a law-
enforcement effort, so that the departments of health and human 
services and education and others can use the pots of money and 
programs that they have and have been using for years to great effect--
there is tremendous money and efforts and effective programming within 
HHS, for example, in public safety--would those types of programs and 
efforts still fit under the rubric of terrorism prevention, or are we 
taking this and putting it wholly on the security, law enforcement, 
intelligence side of government? I would argue that would be a big 
mistake if only because it would be a poor way to organize ourselves to 
use our existing resources and to address the full gamut of issues that 
we need to address.
    Don't believe Matt Levitt on this. What does he know? Listen to 
U.S. law enforcement. If you talk to U.S. law enforcement, they will 
tell you, they will beg you--I started my career in FBI--please help 
us. They are drinking from the fire hose. We have reports of over 900, 
at this point about a thousand, Islamic State cases alone--that doesn't 
include al-Qaida or someone not involved with the Islamic States--
across all 50 states in this country. Law enforcement is desperate for 
there to be someone who's going to start dealing with people who are 
going down the wrong path before they break the law, before they become 
a law enforcement problem.
    And we don't want FBI dealing with that. We don't want FBI dealing 
with people before they've broken the law. But I sure hope someone's 
going to, not as a law-enforcement issue but as a cohesive-society 
issue. The same way we do counter-drug and counter-gang, we should be 
doing this too. And the way things are going to be structured now, it's 
not clear we will effectively be able to do that.
    Recently I came across a publication called Sheriff and Deputy, 
arguably a little bit law-enforcement-centric. And they specifically 
talk here--and this is a recent publication from July and August--about 
the community-based threat assessments and their role in prevention, 
about the need to understand mental health symptoms and stressors. 
These are themes that most people in Federal Government now in the 
Trump administration are less comfortable with--that's something 
someone else should be dealing with. And I would argue this is 
something we absolutely must deal with.
    I think the other big cleavage issue is this issue of whether we're 
only dealing with the Islamic State and other Islamist extremists or 
all forms of extremism. We've had some very, very, very difficult times 
in this country recently, some not clearly tied to any type of 
ideology, at least yet--think Las Vegas--and others absolutely--think 
Charlottesville. In the wake of Charlottesville, the Military Times did 
a poll, and they polled 1,131 active-duty soldiers, and they asked them 
what's the biggest threat to America? And by a small margin, but a 
margin nonetheless, they said that white nationalists are a bigger 
threat to America than ISIS in Iraq and Syria. That's current U.S. 
military. And I think maybe we should take a pause and take a moment to 
reflect on that, because if we are going to create cohesive communities 
that are resilient and at the most basic level in terms of mayors' 
offices--the Association of Mayors is meeting right now--schools, 
religious institutions, libraries, places where you can actually see 
what's happening in your community and where local police are doing the 
real community policing are there, that's where this is going to be 
effective if it's going to be effective at all.
    We have heard for many, many years about the need to have an all-
elements-of-national-policy effect--all-elements-of-national-power 
policy. Let's do that here. And I worry that if it's terrorism 
prevention, there'll be many elements of U.S. national government power 
we won't be able to bring to the floor. And second, in this particular 
area, we need much more than that. We need a whole-of-society effect. 
We need to be able to work with NGOs. We need to be able to work with 
grassroots organizations. We need to be able to work with mental health 
professionals. At the end of the day, to the extent that homegrown 
violent extremism becomes one of the next big trends, which is one of 
the ways that the battlefield defeat of ISIS in Syria and Iraq may play 
out as the terrorism threat continues, as Peter pointed out in his 
opening comments--to the extent that that is true, arguably the most 
important people that will be deployed to prevent the next attack will 
not be police or FBI agents or intelligence analysts, but they'll be 
clinical social workers and they'll be clinical psychiatrists and 
psychologists, working in communities.
    I'll give you one last final example, and with this I'll close. 
We've had several cases--think just about Rahimi in New York, who was 
just convicted for the bombings in New York and New Jersey; we had Omar 
Mateen in Orlando; we've had other cases, people who had come across 
the radar of law enforcement, they were not complete lone wolves, they 
were known wolves, if wolves at all--but law-enforcement ran down their 
strange behavior and ultimately decided there was no violation of the 
law, and so they did the right thing under the law, and they closed the 
investigation.
    Now, to whom were they able to hand over these cases that FBI could 
not pursue anymore under the law? But they were pretty strange. Omar 
Mateen was saying at one point, I want to be Hezbollah, I want to be 
al-Qaida, I want to be ISIS, not understanding that those groups are 
fighting each other tooth-and-nail, not knowing the differences between 
any of them, not being a particularly religious person himself. There 
was the issue of his flunking out of correctional officer school. To 
whom could they hand this off, saying, hey, here's a guy who needs help 
and who's demonstrated disturbing behaviors? This is not our place.
    The answer was nobody, and that's not acceptable. But I don't have 
strong opinions on that. [Laughter.]
    Mr. Tiersky. Thanks, Matt. I think you very powerfully raised some 
important questions. What are we trying to achieve? Who will be tasked 
to achieve it? What do we call it? That matters. How do we not exclude 
critical agents of prevention, for lack of a better term? That was an 
excellent intervention. Thank you.
    I also want to thank you for reminding me that I neglected to 
mention that we are streaming live on Facebook. And thank you for that. 
If anyone's tweeting, you are welcome to use our handle, @HelsinkiComm.
    Ladies and gentlemen, I'm going to turn it over to the audience for 
the questions and interventions you might have in a minute, but I will 
take the moderator's prerogative to ask a first set of questions here.
    I would like to ask Seamus and Matt to think through and explain 
for us, again, this heavy-handed approach that might be 
counterproductive, because as important as it is for us to be reminded 
of what it is that we should be doing, we should be reminded of what 
may be happening that may not be working very well. If I could ask you 
to think that through and maybe give us some thoughts on things that 
may not be the approach that you might recommend.
    Secondly, what I would ask Peter to respond to is once we've laid 
on the table some areas where there might be--it comes up again and 
again, that there are differences in approach, there are differences in 
definitions, and these things matter. Talk to us a little bit more 
about how the OSCE can help get over those differences in definition if 
nothing else in order to engender additional areas of cooperation, or 
is it possible to cooperate without agreement on definitions, without 
agreement on fundamental approaches? Are there still things that can 
happen productively through the context of the OSCE? Or if you'd like 
to raise a different tool, as we were talking about, please feel free 
to do that.
    So can I turn it to Matt or Seamus? Who might like to begin with my 
first challenge?
    Mr. Hughes. The first thing that comes to mind, is less the heavy-
handed approach and more that we don't have the soft-handed approach, 
meaning that the fact that in Minneapolis, for example, we've arrested 
12 individuals for terrorism charges as it relates to ISIS, but in none 
of those cases do we try, or at least have a board set up for 
interventions or disengagement or de-radicalization.
    So if community partners are looking at these type of things and 
they're saying, I have a kid I'm worried about, he clearly likes ISIS, 
and the only option they have is the FBI and the only option the FBI 
has in turn is an arrest or takedown, that will then feed into this 
idea of the us-versus-them narrative.
     I think Matt's absolutely right. This idea of off-ramps, this idea 
of interventions, which to be fair is not novel except for in the 
U.S.--for some reason we still think this is an interesting case to 
deal with, but until we get that taken care of, I think it's going to 
be an issue. And a lot of that has to do with the fact that we have a 
material-support-to-terrorism clause in the U.S., which for right or 
wrong is very elastic and broad, which allows for law enforcement to 
arrest an individual who, say, is driving to the airport to go to 
Turkey or going to Syria or Iraq. And so that kind of elasticity allows 
for law enforcement to intervene in a criminal action in an earlier 
stage than, say, our European partners may have the options to. And 
that makes us not particularly creative when it comes to prevention 
programs.
    Mr. Levitt. Yes, I completely agree. Under material support, it's 
not just a question of providing money or other types of material. You 
could be providing material support by providing yourself. So again, 
you drive someone to the airport, you go to training camp, and the 
material support was you provided yourself.
    The thing is, law enforcement, prosecutors don't want to use that 
every single time. They want to have other options. Some kid who really 
was about to make a bad decision and maybe shouldn't spend the rest of 
his or her life behind bars--the main issue here for me is that if the 
face of our best community options is law enforcement, there will be 
some coming from a good place and some coming from a bad place. There's 
a little bit in this area of ``haters gonna hate'' who will feel that 
this is--or fear that it is--a cover for spying.
    For example, at one point the FBI had a very, very well-intentioned 
effort to work with local communities and create what they called 
social responsibility committees that would involve the clinical social 
workers and what have you, and that did not go over well because it was 
FBI-driven. The idea at its core is a good one. But if you can have 
locally driven, nongovernmental-driven elements to work in society that 
then could have some connective tissue to law enforcement--as Seamus 
said, this is not new. You know, in the U.K. and in the Netherlands, 
many years ago they started these types of efforts, and the deal was 
that the police would not automatically just open a file on someone who 
came up for discussion at all.
    On the flipside of the heavy-handed approach, I think we need to be 
just as wary as a hands-off approach because there needs to be not just 
funding and training support, but there needs to be coordination. So, 
for example, in Minneapolis where they have more recently had a judge 
who has taken it upon himself as an effort to try and bridge this gap 
to bring in someone from Europe to try and do a radicalization 
assessment, to see if there could be extenuating circumstances either 
in terms of a plea bargain or sentencing, what have you, and that made 
prosecutors around the country, even prosecutors who think this type of 
an idea is a good one, very uncomfortable because it wasn't the same 
across the country. So you're telling me that in Minneapolis in a 
particular given situation, you're going to let someone go, or go with 
six months or one-year probation, but somewhere else in the country we 
don't have that and so we're going to sentence them to seven years in 
prison?
    We do need to have some very important federal footprint here to 
help drive this effectively.
    Dr. Neumann. Before I respond to your questions, Alex, let me just 
highlight one point that Seamus raised that I think is another good 
example of where CVE, countering violent extremism, can be really 
important. One point on targeted interventions that's very obvious, 
that there is a need for this capability, another area are prisons. 
Prisons are the single most predictable thing that is going to become 
more important in years to come simply because of numbers.
    As part of my official visit, I went to the Netherlands, and I 
visited the high-security prison in Vught, which is the place where the 
Netherlands keeps all its convicted terrorists. And 10 years ago, the 
entire country of the Netherlands had exactly 4 people in that prison, 
4 people who had been convicted of terrorism-related offenses. And 
that's how it stayed for a long time. Last 3 years, 30 people were 
added to those 4 people. They now have not only 1 wing but 3 wings at 
the prison that are being populated by people convicted of terrorism-
related offenses, and 20 more are likely to be added just this year.
    And for the first time, they actually have to systematically think 
about how to organize the prison, who to house with whom without 
accidentally re-creating organizational or operational structures, how 
to deal with people who are disillusioned. What opportunities exist for 
these people to become de-radicalized within prisons? Always 
considering what Seamus pointed out, that in a lot of countries where 
people have not necessarily killed anyone but are convicted of, for 
example, membership in a terrorist organization, which is a criminal 
offense in a lot of countries, people have been convicted for three 
full years and will be out very soon.
    In fact, for example, it was announced only a couple of days ago 
that 54 percent of the terrorist prisoner population in France will be 
out before the year 2020. This is not something that can be 
unaddressed, and it is something that will come up as an issue for 
almost every member state of the OSCE. What are countries doing to 
prepare themselves for that? To what extent are they learning from 
other countries that have more experience with organizing terrorist 
prisoners within prison? What opportunities are there to de-radicalize 
or disengage people? What opportunities are there for dealing with 
people after they are being released? These questions basically should 
arise in every single one of the 57 member states of the OSCE, and 
that's why it's important to learn from each other.
    On your specific question of what scope is there for cooperation 
without a definition, I don't think it's likely that within the OSCE 
context or within the U.N. context there will be an agreed definition 
of terrorism anytime soon. And perhaps that's not necessarily an 
obstacle. In fact, within the U.N. context, within the OSCE context, 
countries have worked, collaborated, cooperated with each other on 
specific groups such as, for example, ISIS on a case-by-case basis. I 
think there is an understanding, a working understanding of what the 
groups are that you're trying to counter.
    However, the absence of definitions of course then does create 
problems. To give you two examples--and this is not off the record, but 
these are well-stated positions--when I went to Moscow, almost everyone 
I talked to asked me, what is CVE? We don't get it. We don't understand 
it. Can you explain it to us? And I don't think that was entirely made 
up. I think they really fail to understand, and they had the firm 
impression--and to some extent this is the fault of the Obama 
administration--they had the firm impression that in fact the Americans 
wanted to replace counterterrorism with CVE altogether. To make them 
understand that this is not a substitute or a replacement but is 
complementary to traditional counterterrorism efforts is a point that 
no one ever made to them.
    And I think that's why I spent quite a lot of time in my report on 
definitions because I think it is important to lay this out and to 
explain that CVE is essentially identical to VERLT and to PVE, as U.N. 
calls it. Every organization wants to have its own acronym. And by 
doing that, they are creating, in fact, a lot of confusion.
    The second example I want to give you is perhaps the more poignant 
one, and it highlights that this is not really a debate about 
definitions. It's really a debate about political priorities.
    When I went to Ankara, when I went to Turkey, they told me, yes, 
we're against ISIS. ISIS is a threat to our country. They've killed 
people in our country, so we're happy to collaborate. However, we also 
have other terrorist organizations that we want to counter. We want to 
counter what they call now FETO, the Gulen organization, which they 
push very hard at an international level--they consider them to be 
terrorists--no one agrees with them, but that's what they do. It's a 
terrorist organization for them, and America is protecting it, because 
the leader of that organization sits somewhere in Pennsylvania.
    And [they told me] the second group that we are against is the PKK. 
And in fact, the PKK for us is a more pressing threat than ISIS. They 
kill a lot more people in our country. And America in its fight against 
ISIS is, according to Turkey, arming, training and equipping the PKK.
    So clearly when it comes to speaking to Turkey, for example, about 
countering violent extremism, countering terrorism, it's a completely 
different narrative, it's a completely different set of priorities. And 
I don't think it's very easy to bridge that. Yes, to some extent they 
are collaborating on CVE efforts. They are not against it. But the sort 
of discourse that we're having here in Washington, D.C. is not the 
discourse that they are having in Ankara, and that makes it difficult. 
And, yes, you can find areas of collaboration, but ultimately it will 
always come to the point where these political differences--these are 
not differences about definitions, they are political differences--will 
basically make it impossible to go all the way. That's why the OSCE 
should not be the sole instrument for fighting violent extremism, but 
it can be useful in some respects.
    Mr. Tiersky. Thank you, Peter.
    Another cleavage that seems obvious to me from what's been said by 
the panelist today is a difference of perspectives on the role of civil 
society versus the role of the state on some of these questions.
    Do we have questions from the audience? Please, if you wouldn't 
mind using the microphone for our colleagues on Facebook who might be 
watching. Thanks very much, and please identify yourself.
    Questioner. Yes, Ismail Royer from the Center for Islam and 
Religious Freedom.
    I'm wondering if there's something about the difference between 
America as a society and Europe as a society that results in this very 
different scale and scope and nature of the threat of homegrown 
terrorism between these two societies. And if so, obviously we can't 
re-engineer European society, but are there some lessons to be drawn 
from that?
    Thanks.
    Mr. Tiersky. It's quite a broad question. Would anyone like to 
begin?
    Mr. Levitt. I think Peter should try and re-engineer European 
society. [Laughter.]
    Dr. Neumann. This has often been articulated. There's no question 
that Muslims in European societies feel more marginalized and that, 
objectively speaking, they are more marginalized, and that it is more 
difficult, let's say, to become a true Brit, or true German, or to 
truly belong to French society if your first name is Muhammad and you 
are from a suburb of Paris, whereas it is easier, even in the first 
generation of immigration, to become accepted as an American. And so I 
do think that we have something to learn from the American experience.
    However, at the same time, it is also true that in America Muslim 
immigration has been perhaps more selective and is more spread out 
across the country. In fact, the only area within the United States 
that is perhaps comparable to the European situation are Somali 
communities in Minnesota--James can speak with more authority on that--
and that's where we're seeing a disproportionate number of recruits to 
first al-Shabab and then Islamic State. But outside of Minnesota, the 
kind of ghettos that you hear about--Molenbeek in Brussels, the suburbs 
of Paris, do not exist to the same extent.
    So I think, yes, there is something. There is a best practice, 
perhaps. But, again--and I'm speaking as a European here--this is 
something that is very difficult for politicians in particular to 
articulate, to domestic audiences, especially at times when far-right 
populists are gaining ground. And to say to people that perhaps we have 
to become more willing to integrate Muslim communities that are blamed 
for all sorts of things is very difficult.
    Mr. Hughes. I would agree with all those points and I would add a 
few other things to consider. Just in general, the geographic 
dispersion, it's a little bit harder for our folks to get to Syria and 
Iraq in general. And the fact that the material support for terrorism 
clause allows you to break up folks probably sooner than other 
countries.
    But probably the most important kind of dynamic is we haven't seen 
kind of the in-network, or in-person recruitment that we've seen in 
Europe. We don't have a sharia for U.S. kind of playing out here. We 
did in the early 2000s with Revolution Muslim, and once that 
organization was taken down--for the most part in the U.S. context 
you're talking about twos and threes, not fours and fives of 
individuals going.
    So we talk a lot about this idea of online radicalization or online 
recruitment. Minneapolis is a good example of this dynamic. You know, 
12 guys get out of Minneapolis and go try to join ISIS. In Columbus, 
Ohio, or Lewiston, Maine, or San Diego, with the same kind of similar 
demographics, it's zero to one guy, and they all have wi-fi. It's not 
really a matter of ease of use of the internet. It has to do with the 
fact that the first wave of guys left Minneapolis to go to al-Shabab, 
and their brothers and sisters and roommates then were the next wave 
that went to ISIS, and they called back their friends. So this in-
person recruitment, this in-person network I think matters a great 
deal. And for the most part, we've been fortunate in the U.S. to not 
have that kind of growing.
    Mr. Levitt. You guys covered all the most important points. I'll 
just use this to pivot one little bit, and that is to say you often 
hear that America's the greatest melting pot, and therefore that's the 
big difference. And there's something to that, but it's limited.
    I would take this opportunity to say that while border security is 
an important issue, I think there's been a little bit too much of a 
focus on the travel issues and travel bans on that as a 
counterterrorism issue, because I don't really see it as a 
counterterrorism issue, at least a particularly important one. And then 
here I would cite two Department of Homeland Security and Senate 
Homeland Security Committee reports, both of which conclude or 
highlight that at the end of the day, if you look at the cases of 
people who've been radicalized, certainly to the point of violence in 
this country, to a one, they were radicalized here, including people 
who came from abroad but were not radicalized before they came here. So 
it's not the case, or it's certainly not just the case, that if we 
could address the issue of border security we would address a problem 
of radicalization and radical incidents in this country. It highlights 
the need for this panel and the need for programs that will be 
happening, not from the outside-in but inside, because at a minimum 
radicalization also happens here in the United States--even if our 
situation is very different from that in Europe.
    Mr. Tiersky. Excellent.
    Anybody else would like to take the floor from the audience at this 
point? Any questions?
    Ambassador Strohal, please. If you wouldn't mind using the 
microphone.
    Questioner. Yes, thank you. Maybe just a comment rather than a 
question, if I may.
    Mr. Tiersky. Please.
    Questioner. Simply thanking you--first of all, it is the Austrian 
National Day, and there is no better place than the Helsinki Commission 
to spend it, because you are this unique interface between government, 
parliament, and civil society. And this debate is a great debate among 
super experts, I think, precisely looking at this interface.
    And maybe just a couple of points why we have been bringing this 
into the OSCE. Peter mentioned a few arguments already. I think the 
wider picture is that this is an organization where everybody's there, 
all the 57 governments who make up this organization, but also where we 
have a very comprehensive security concept. And so where we have been 
starting is, as Austrian chairmanship, was looking where are the key 
risks and threats our societies are facing together? And if I simplify 
a little bit, then we have war, like the one in Eastern Ukraine. We 
have other conflicts in the OSCE region, not only outside the region. 
We have also grave violations of international law and international 
principles which are putting effective multilateralism increasingly 
into danger. And we have more specifically radicalization which could 
lead to terrorism, as a specific focus we wanted to create and where we 
are extremely grateful to not only have found Peter Neumann but to see 
that he agreed to work with us throughout this year on what became a 
great report. I think you have created not only attention but a great 
focus on this issue, and provided a number of very important case 
studies and recommendations. And we are certainly looking, at the 
moment, with other OSCE states how we can ensure the most meaningful 
followup to your report and to your recommendations.
    And certainly the main thrust of this in terms of preventing things 
from happening is bringing us also very much to all our domestic 
situations in Europe, which indeed are different. And just to give you 
a couple of figures, Austria is a country of less than 9 million 
people, but we calculate that there about 300 people who have left for 
ISIS. Hundred probably are dead, hundred are still there and a hundred 
have come back. If you take a country like Belgium, the proportions are 
even higher. So this is a real daily concern in all our countries and 
all our societies. So the focus we will be creating in terms of 
exchanging not only best practices but enhancing cooperation across all 
57 on these issues has been greatly facilitated by Peter Neumann and 
certainly also discussions like this one here today. And I hope we can 
see more of them.
    And thank you once more.
    Mr. Tiersky. Thank you, Mr. Ambassador, and thank you for this 
excellent intervention and thank you especially for sharing your 
National Day with us. That's very much appreciated.
    Ladies and gentlemen, I certainly have more questions. I want to 
make sure there's an opportunity for the audience. I see two in the 
back here.
    Yes, please.
    Questioner. Hello. I'm--[inaudible]--journalist from Lebanon.
    Well, let me speak about radicalization. You need funding for it. 
And isn't it a double-standard sometimes to fight radicalization and be 
friends with nations that are funding these groups? Okay, there is 
ideology, we understand. This idea was here we cannot fight it 
overnight, but can a state fight--nations are funding these groups, 
like in ISIS, for example, the border, like early days, how ISIS start 
growing by receiving money and the Turkish border and in Syria--well, 
of course, the war posed a lot of problems, like ISIS was moving 
around, selling oil and gas to Turkey. I mean, just an example I'm 
giving here. Qatar, you know, in WikiLeaks, it was very obvious that 
they were funding some groups or extremists, and these groups used the 
money to organize people.
    This question probably you can also answer. Do you understand, the 
state, how they treat if there is racism--probably, you know, some 
people feel like they don't belong to a society. They try to find 
groups that can host them. And probably these extremist groups--and 
U.S. are not going so much into societies, but in France, we know there 
is a high tension of racism against Arabs. Probably sometimes they feel 
they're left alone from the community and some groups like extremists 
like ISIS, that's why they recruited many people from France or also 
from North Africa, like from Tunis and Morocco. But my major concern 
here, isn't it a double standard when we're trying to fight radicalism 
and recruiting young people or poor people from neighborhoods or 
whatever, and we're not fighting the funding of these groups that are 
making them become bigger and bigger?
    Thank you.
    Mr. Tiersky. Thanks very much.
    I'd like to take the next question as well at this time, please.
    Questioner. Hi. I'm Erika Schlager with the Helsinki Commission 
staff, and I'd like to start by thanking everyone on the panel for 
being here today. This kind of event is extremely helpful for us in 
informing the work that we do at the Helsinki Commission. So let me 
start with that.
    I work on human rights issues, and this is a little bit outside my 
box. But when Mr. Hughes mentioned the material support statute, I was 
reminded how a number of human rights groups in the United States have 
sometimes been critical of the way the material support statute has 
been used or have been critical of conspiracy charges in certain 
instances where some NGOs have said that's really tantamount to a 
thought crime.
    My question is, how do you ensure, when you do the work that you're 
doing, that you're adequately factoring in the human rights 
perspective? And I say that mindful that human rights grievances can 
sometimes itself be a driver for radicalization.
    Thanks.
    Mr. Tiersky. I think that the panel is in consensus that Matt will 
take the first crack.
    Mr. Levitt. I've been thrown under the bus--not the last or first 
time.
    This is a great opportunity to show how things should work when 
people don't fight with each other to the point of radicalization. 
Peter and I agree on a great many things, especially on this topic. We 
have a disagreement on some terror financing issues which we have 
competing articles in Foreign Affairs, and we've both been, I think, 
quite proud of how the example we've set on Twitter--which is not known 
for polite discussion and debate--at how we've handled that. So I'll 
just say a quick comment and then, Peter, you should feel free to 
disagree if you like.
    Look, the issue of ISIS financing is exceptional and unique. The 
amount of foreign funding that the Islamic State got from individuals, 
which happened--or from countries, which happened less--was quite 
small. The massive amounts of money that it got, that enabled it to do 
all the things that we know about, atrocities and more, is primarily 
from being able to raid banks, somewhere between 500 million and a 
billion dollars in Mosul alone, and then control of territory. And by 
virtue of controlling territory, it was able to exploit local 
resources, whether it was oil or other things, and even just taxation. 
And they taxed everything that you could possibly imagine.
    In that sense, by the way, while the threat from the Islamic State 
is not over, as Peter pointed out in his opening comments, the Islamic 
State will have, on the one hand, far reduced economic needs--because 
it's not running a quote-unquote country, but also have far, far fewer 
resources--arguably more than enough resources to be able to provide 
seed money to terrorist attacks--which cost very little money--and 
maybe it won't even need that because most homegrown violent extremists 
who are inspired by the Islamic State will finance attacks through 
crime or their own bank accounts. We're talking small amounts of money.
    The issue of the double standard is complicated, and maybe an OSCE 
event is a good place to discuss that, because the end of the world, we 
need to be a little bit of realpolitik. And if you want to be able to 
effect change in what's happening in Syria, you're going to need to 
work with Turkey.
     Turkey was pretty upset when then-President Obama got up in front 
of cameras after repeated U.S. Government attempts to try and get 
Turkey to shut down a very large portion of its border that was not 
shut down. Turkey was very upset when President Obama got up and said 
publicly you haven't shut down this border and you're effectively 
facilitating the activities of the Islamic State. They were very upset, 
but they then shut down, gradually, that border. So partly the double 
standard; this is how we have to behave sometimes in the real world.
    You know, there are some counter radicalization, counternarrative 
institutions in the Gulf, for example, some of which are doing some 
quite good work. Many people are critical of that saying, well, hasn't 
radicalization come, at least in the past, maybe even currently from 
Saudi Arabia or elsewhere, and the answer is, first of all, there's 
been some progress and change. And second, we need to work with people. 
Arguably, Muslims in the region will have more credibility on issues 
related to the Islamic faith than maybe an American government 
official. So on the double standard, I would say that.
    On the issue of the human rights question, I'd simply say that 
there is a very large element here of ``haters going to hate,'' and 
there's also some absolute important truth to this as well. The big 
issue here is entrapment and whether people are being entrapped into 
actually doing something, which ultimately is what has to happen for 
there to be a material support or a conspiracy charge. And I think that 
law enforcement has gotten very, very good, and there are lots of 
really specific things put in place to make sure that entrapment 
doesn't happen. The fact that entrapment defense has not worked in a 
whole lot of cases, in courts that are not unsympathetic to that claim, 
I think is telling.
    And so I would challenge the idea that ultimately what's happening 
here is a thought crime, a thought police type of situation. I am very 
sensitive, however, to the fact that when it gets to CVE/PVE, before 
someone is charged with an actual material support, that that's the 
sensitive spot. We don't want, as I said, FBI or other law enforcement 
to be involved in that pre-crime space because we don't want them to be 
thought police. But there has to be someone who legitimately, from a 
nonprofit, from a social cohesion, local community perspective, the 
same way social workers and high schools will get involved when they 
see a kid who's got a problem having nothing to do with violation of 
the law will be able to get involved. And I am--and I hope others--are 
sensitive to this issue of doing it in such a way that people will feel 
comfortable participating and not have to think, well, maybe I 
shouldn't get involved because maybe this is somehow involved with 
spying and thought police. That's where I come to that particular 
issue.
    Mr. Hughes. Maybe one last point on Matt's point. In the U.S. 
context, I think actually transparency matters a great deal, too. And 
so when I seek re-engagement, part of that was to kind of explain 
systematically what the material support of terrorism clause was so 
people understood what the right and left lines are on it. And then 
it's especially important when it comes to the online space. You know, 
the idea of countering alternative messages is great except for if 
folks don't want to do that because they're worried if they talk to a 
known or suspected terrorist they're going to hit against a terrorism 
statute. And so providing some level of guidance for community 
practitioners on what's OK online I think is incumbent on Department of 
Justice and others like that to do that.
    And then finally--and there are other kinds of low-hanging things 
that we should be able to do, which is, what is the requirement for--in 
the U.S. context for a religious leader who tries an intervention but 
the individual gets arrested. Do they have to be a witness in a 
terrorism trial? If they try intervention and it goes south, and that 
young man stabs a bunch of people in a mall, are they civilly liable 
for these things? These are kind of easy-ish questions to wrap our 
heads around, that if we got enough lawyers in a room and took away the 
food, we could figure this out. And I think it's incumbent on us to 
figure that out.
    Dr. Neumann. I can briefly particularly respond to the first 
question. And in fact, I agree with everything that Matt said.
    Mr. Levitt. I'm done. [Laughter.]
    Dr. Neumann. But I want to add a couple more points. The first is 
particularly delicate because of course the question that was raised is 
one that often if not always comes up. I agree with Matt that the 
direct funding that comes from Gulf countries to organizations like 
ISIS is perhaps a little bit exaggerated. However, if you go to 
different OSCE countries, if you travel across Central Asia, you go to 
Kazakhstan, you go to Kyrgyzstan, you go to the western Balkans, you go 
to Bosnia, for example, what people will tell you--and I'm not saying I 
agree or I don't agree, I'm just telling you what people tell me in all 
these places--they say while at some point Saudi came in and started 
paying for mosques, and four or five years later we started having a 
problem. And they believe that this is not a coincidence.
    And it is of course true that the Saudi form of Islam--whether you 
call it Salafism or Wahhabism--the kind of activity that Persian Gulf 
countries have sponsored is not directly aimed at creating terrorist 
groups, but you can easily see how some people, a minority of people 
who then follow these tendencies, then pervert this kind of already 
rigid form of Islam and then end up supporting terrorist groups. In 
fact, I'm saying this because that's exactly what the crown prince of 
Saudi Arabia said only two days ago when he in fact said at a 
conference that mistakes have been made, that his country overreacted 
to the Iranian revolution in 1979 and that they want to now return to a 
more moderate form of Islam. And so in that sense, he confirmed what a 
lot of people have suspected. That's one problem that has been 
identified in many OSCE countries.
    The second one is related to what's happening in the Middle East. I 
think sometimes people underestimate quite how tectonic the changes are 
that are currently happening in the Middle East. I'm absolutely 
convinced that in 100 or 200 years we will be reading about this period 
in history books. And while we are very focused on Islamic State 
because they are the ones threatening us, the reality in the region is 
that there are a number of conflicts going on. There is sectarian 
conflict between Sunni and Shiites. There is a regional power conflict 
between Saudi Arabia and Iran. There is a domestic conflict between 
military authoritarian rulers and the Muslim Brotherhood. And there is 
of course the rise of jihadism. And all of these things are happening 
at the same time.
    And I think it is obvious that at least at the beginning of the 
Syrian conflict, there was a widespread view amongst Sunni powers in 
the region, that they would support whoever was fighting against what 
was perceived as a Shiite conspiracy led by President Assad supported 
by Hezbollah and backed by Iran, and that countries were not 
particularly discriminating, at least at the beginning, when it came to 
supporting groups, some of which took an extreme turn and ended up 
essentially becoming jihadist groups. And that's what explains, to some 
extent, why you can make a connection between some of the support that 
went into that conflict, supported armed groups as part of that 
conflict, that ended up with groups like Islamic State.
    It was not so much intentional. It was, I think, a case of neglect 
and carelessness. And I hope that countries in the region are going to 
be more discriminating and more careful and more considering the 
consequences of some of the groups that they support, thinking that 
they are supporting one or the other side in a particular conflict. It 
is very complex, and I do think that explains to some extent what's 
been happening in the region.
    Mr. Tiersky. Thanks very much.
    We have a question in the back. I think this will be the last 
question before I ask our panel to provide their concluding thoughts so 
that we can finish on time. Please.
    Questioner. Sherry Hartley [sp], Congressman Hastings' office.
    Peter, I'm wondering if you could expand on the OSCE Action Against 
Terrorism Units and specifically if they're collaborating on 
counterproliferation. And I'm looking towards WMD dual-use 
technologies, emergent technologies, if you uncovered any of that 
aspect.
    Dr. Neumann. I can answer that very briefly. Yes, it is amongst the 
list of things that they do, but it's probably fair to say that in the 
last three or four years that was not one of their priorities. There 
were not a lot of activities in that area even though it is within 
their remit. And if there was a lot of interest from member states, 
they would start doing that again. But right now, there's not a lot of 
activity.
    Mr. Tiersky. Let me ask our panelists for their final thoughts, and 
maybe I'll frame this this way: At the risk of asking you for a 
forecast, I'm going to ask you for a kind of a forecast. What's the 
best-case scenario for international cooperation on countering 
radicalization? And what's the worst-case scenario? What are the 
consequences therein?
    Well, we'll have Peter be our final speaker on this, so I'll ask 
Seamus or Matt, take us to your thoughts.
    Mr. Hughes. OK, so what's the best-case scenario? Best-case 
scenario, everything works out. No, the best-case scenario is some sort 
of patchwork of CV programs where what works in Austria can then be 
translated to what happens in U.K. and having some level of that type 
of information sharing in a more systematic and comprehensive way.
    The worst-case scenario is kind of what I lined out in my opening 
statement, which is CV becomes the cause of and solution to all the 
world's problems and it becomes this catch-all phrase where the issues 
that Peter laid out in Turkey become tenfold in other countries too, 
and we see that play out, whether you're looking at Russia or other 
places like that. And so this question of definitions and this question 
of kind of all singing from the same sheet of music I think is quite 
important when it comes to CV.
    Mr. Levitt. The bottom line is that this is not a situation that we 
can arrest, shoot or kill our way out of alone, and so in a best-case 
scenario we are brave enough to try and fail, and learn from those 
lessons and try again. I see many more examples of that in Europe than 
I do here. And if I can be perfectly blunt, it's largely because on 
Capitol Hill there isn't much of an appetite on any side of the aisle. 
It's just not our political culture in this country for tolerance of 
failure. When our report came out and we briefed all kinds of 
committees and we briefed the departments, when we briefed the 
committees in particular, a lot of them said, well, can you show me 
metrics of success. I said, well, we'd need to actually try something 
which we could then measure. So, well, why should I fund something that 
I don't know will work? And I said why do we ever. We do things. And it 
was a little bit of a circular process, and that funding has not been 
forthcoming.
    And so, to date, what's working is private funding, local funding. 
And I think it's a big problem that what little federal funding has 
picked up, has since been cut, the CVE federal grants in particular. 
But if we did well, we would learn these lessons learned, we would 
share them, and we would tailor them, because what happens not just in 
a given OSCE country to another OSCE country, but what happens in 
Washington, D.C., is not going to be exactly the same as the way it 
works in Minneapolis, or L.A., or Boston, or what have you. It's not 
going to be one-size-fits-all. That's if it goes well, and it will be a 
long slog and a messy process. That's if it goes well.
    If it doesn't go well, we decide that it's too complicated or 
perhaps we say that CVE/PVE, choose your nomenclature, it's just too 
soft. And our job is to stop terrorists, not to coddle them. And if we 
find someone anywhere in this field, we should use the material support 
statute in every single case, and if someone has a problem they should 
go talk to their mommy. And we will do CT, thank you very much, and the 
rest of it is not what we do. That would be a colossal mistake, not 
only from a counterterrorism and violence prevention perspective, but 
from a perspective of social cohesion and community resilience as well.
    Mr. Tiersky. Peter, final thoughts other than of course the best-
case scenario being that we adopt all of your commendations in the 
report, please. [Laughter.]
    Dr. Neumann. Exactly. That's what I was going to say.
    I do think that there is a case to be made for a more systematic 
lessons-learned process, exactly as Seamus mentioned. I do think that 
you can imagine more cooperation, but I think there needs to be an 
awareness of the limits of what is possible. I think sometimes people 
working in international organizations are overambitious, and I think 
we need to recognize--everyone needs to recognize--that CVE is only one 
part of the puzzle and that the OSCE is only a very small part of the 
CVE/CT puzzle. As long as we all recognize that, I do think good things 
can come out of that. But the worst enemy of progress is being 
overambitious and then failing and then turning in the opposite 
direction and thinking nothing works. I hope we can have a nuanced, 
sensible understanding of what works and what doesn't work.
    Mr. Tiersky. Well, I think certainly good things have come out of 
your willingness to come here and present your report and, Matt and 
Seamus, your willingness to come and provide us your expertise. As one 
of my colleagues have said, this type of event is extremely helpful for 
us to help staff our members in the broader community here that's 
interested in the issues that we're all working on together. Thank you 
all for being here. I'd like to thank the audience for your excellent 
questions. And if everyone could please thank our panelists in the 
customary manner. [Applause.]
    A transcript of this briefing should be available within a few days 
on our website. Thank you. This concludes the event.
    [Whereupon, at 3:32 p.m., the briefing ended.]
 
  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe [OSCE].

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
